HHS/OIG, Audit - "Follow-up Review of the Medicaid Drug Rebate Program in
North Carolina," (A-04-07-07028)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Review of the
Medicaid Drug Rebate Program in North Carolina," (A-04-07-07028)
June 18, 2008
Complete
Text of Report is available in PDF format (224 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In a follow-up review of the North Carolina Medicaid drug
rebate program, we found that the State agency had established controls over
collecting rebates on single source drugs administered by physicians.
Manufacturers may make their outpatient drugs eligible for Federal Medicaid
funding by entering into a rebate agreement with the Centers for Medicare and
Medicaid Services and paying quarterly rebates to the States.  The
Deficit Reduction Act of 2005 required States, as of January 2006, to begin
collecting rebates on single source drugs administered by physicians.  This
report offers no recommendations.